No.

IN THE
SUPREME COURT OF THE UNITED STATES

PAUL R. HANSMEIER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Supreme Court Rule 39, Petitioner requests leave to proceed in
forma pauperis, and to file the attached Petition for Writ of Certiorari without
prepayment of fees.
1.

The district court below—the United States District Court for the

District of Minnesota—had appointed the Office of the Federal Public Defender for
the District of Minnesota to represent Petitioner, under authority of the Criminal
Justice Act, 18 U.S.C. § 3006A. United States v. Hansmeier, No. 16-cr-334 (D. Minn.).
2.

The Eighth Circuit Court of Appeals continued the appointment under

Criminal Justice Act, 18 U.S.C. § 3006A. United States u. Hanuman, No. 19-23$6
(8th Cir.). A copy of the order of appointment is appended to this motion.
3.

Hence, under this Court's Rule 39.1, no additional affidavit is required,

and Petitioner requests leave to proceed in forma pauperis.

1

Dated: July 7, 2021

Respectfully submitted,

ANDREW . MOHRING
Attorney Registration No. 190731
Banks Building
615 1st Avenue NE, Suite 425
Minneapolis, MN 55413
(612) 874-1552
ATTORNEY FOR DEFENDANT

